No.

 

In the Supreme Court of the GQnited States

JAMEL MOBLEY,
Petitioner,
Versus

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,

Respondent.

PROOF OF SERVICE

 

I, Rachael E. Reese, do swear or declare that on this date, November 30, 2020,
as required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as

follows:
Supreme Court of the United States
1 First Street, NE

Washington, DC 20543
Electronically Filed and Sent via
Commercial Carrier

Office of the Attorney General

PL-01, The Capitol

Tallahassee, Florida 32399-1050
crimapptlh@myfloridalegal.com
Counsel for Respondent

Served via Commercial Carrier and
Email

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 30, 2020

Rachael E. Reese, Esquire
O'BRIEN HATFIELD REESE, P.A.
511 West Bay Street

Suite 330

Tampa, Florida 33606

(813) 228-6989
rer@markjobrien.com
